No.

IN THE

SUPREME COURT OF THE UNITED STATES

tema hoshen — PETITIONER

(Your Name)

VS.
United States of Amenicn— RESPONDENT(S)

PROOF OF SERVICE
Nemo hashen , do swear or declare that on this date,
FAS 202.1, as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:

Soliton Gemena) of the United Stakes Room Sb1Y
Dirpasntimem jush SO i
\Washimgton” De _80S30-000 |

I declare under penalty of perjury that the foregoing is true and correct.

Executed on 3as 20_A\

(Signature)

 

 
